CERTIFICATE OF COMPLIANCE
Case No. Gatto v. USA
Caption: 21-169

As required by Supreme Court Rule 33.1(h),
I certify that the document contains 5,855 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the fore-
going is true and correct.

Executed on September 7, 2021.

Samantha Collins
Record Press, Inc.

Sworn to before me on

September 7, 2021

NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01086101366
Qualified in Kings County
Commission Expires November 10, 2023

NOC Mb etl

Notary Public
